No.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
TONY DECLOUES - PETITIONER, PRO SE
VS.
STATE OF LOUISIANA, - RESPONDENT(S)
PROOF OF SERVICE
2020, as required by
I, Tony Decloues, declare that on this date, November
Supreme Court Rule 29, I have served the enclosed “MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS” and the “PETITION FOR A WRIT OF
CERTIORARI” on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid.
The names and addresses of those served are as follows:
Mr. Leon Cannizzaro, Orleans Parish District Attorney
1340 Poydras Street, Suite 700
New Orleans, Louisiana, 70112
I declare under penalty of peijury that the foregoing is true and correct.
Executed an November oL_, 2020.
Tony Decloues

26

